     Department of Homeland Security

     ��������������������������



FEMA Should Recover $209,170 of Public Assistance 

  Grant Funds Awarded to City of Daytona Beach, 

           Florida – Hurricane Frances





DA-13-27                             September 2013

                                  OFFICE OF INSPECTOR G£NERAJ,
                                        Department of Homeland Security



                                                  SEP       5 2013

MEMORANDUM FOR:                    Major P. (Phil) May
                                   Regional Administrator, Region IV
                                   Federal Em gene ~agement Agency

FROM:                              John V. Kelly ..  ·
                                   Assistant I~          eral
                                   Office of Emergency Management Oversight

SUBJECT:                           FEMA Should Rerover )209,170 of Public Assistance
                                   Gront Funds Awarded to Ci ty of Daytona Beach, Florida -
                                   Hurricane Frances
                                   FEMA Disaste r Number 1545-DR·FL
                                   Audit Report Number DA-13-27

We audited Public Assistance grant funds awarded to the City of Daytona Beach, Florida (City)
(FIPS Code 127-16525-00). Our audit objective was to determine wheth er the City accounted
for and expended Federal Emergency Management Agency (FEMA) grant funds according to
Federal regulations and FEMA guidelines.

The City received a Public Assistance award totaling $2.6 million from the Florida Department
of Emergency Management (State), a FEMA grantee, for damages resulting from Hurricane
Frances, which occurred in Sept ember 2004. The award provided 100 percent FEMA
funding for the first 72 hours of debris removal and emergency protective measures
und ertaken as a result of the disaster and 90 percent funding thereafter. The award also
provided 90 percent funding for permanent repairs to buildings and other facilities . The award
consiste d of 7 large projects and 28 small projects I

We audited three large projects and six sma ll projects with awards totaling $1.8 million (see
Exhibit, Schedule of Projects Audited and Questioned Costs). We limited our review of small
projects to determining whether the City (1) completed the projects, and (2) received duplicate
benefits for the projects. The audit covered the period September 3, 2004, to January 19, 2010,
during which the City claimed $1.8 million of FEMA funds under the projects reviewed. At the
time of our audit, the City had completed work on all large projects and had submitted final
claims t o the State for large project expenditures.




LFederal regulations in effect at the time of the Hurricane Frances set the large pmjectthreshold at $S4,100.
                                    OFFICE OF INSPECTOR GENERAL
                                         Department of Homeland Security


We conducted this performance audit between November 2012 and May 2013 pursuant to the
Inspector General Act of 1978, as amended, according to generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based upon our audit objective. We believe that the evidence obtained provides a reasonable
basis for our findings and conclusions based upon our audit objective. To conduct this audit, we
applied the statutes, regulations, and FEMA policies and guidelines in effect at the time of the
disaster.

We judgmentally selected and reviewed project costs (generally based on dollar value);
interviewed City, State, and FEMA personnel; reviewed the City’s procurement policies and
procedures; reviewed applicable Federal regulations and FEMA guidelines; and performed other
procedures considered necessary under the circumstances to accomplish our audit objective.
We did not assess the adequacy of the City’s internal controls applicable to its grant activities
because it was not necessary to accomplish our audit objective. However, we gained an
understanding of the City’s method of accounting for disaster-related costs and its policies and
procedures for administering activities provided for under the FEMA award.


                                                RESULTS OF AUDIT

FEMA should recover $209,170 of grant funds awarded to the City. Although the City generally
accounted for FEMA funds according to Federal regulations and FEMA guidelines, its claim
included $209,170 (Federal share $203,471) of questionable costs, which consisted of $152,176
of unsupported equipment costs, $55,969 of ineligible debris disposal costs, and $1,025 of costs
for small projects not completed.

Finding A: Supporting Documentation

The City’s claim included $152,176 for force account equipment that the City did not support
with adequate documentation.2 Cost principles at 2 CFR 225, Cost Principles for State, Local,
and Indian Tribal Governments, Appendix A, Section (C)(1)(j), state that a cost must be
adequately documented to be allowable under Federal awards.

The City claimed equipment costs totaling $152,176 under Project 9400, which included
$74,968 for the police department and $77,208 for other City departments. However, the City
did not have adequate documentation to support the costs. For the police department, City
officials provided a spreadsheet for vehicle assignments that they created and used in
conjunction with the police officer’s timesheets to calculate the claim. However, the City did



2
    Force account refers to the City’s personnel and equipment .



www.oig.dhs.gov                                       2                                   DA-13-27
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


not have other documentation such as vehicle rosters or fleet records to identify the dates and
times that specific vehicles were assigned to police officers.

For the remaining departments, the City used a summary equipment form to record equipment
use. The summary form contained the name of the employee, the piece of equipment assigned
to the employee, the hours of use, and the equipment rate. The City calculated the hours of
use for each piece of equipment using information contained in the employee’s timesheet. For
instance, if an employee worked an 8-hour day, the City claimed 8 hours of use for each piece
of equipment assigned to the employee on that day. The City did not have any source
documentation to support the hours claimed, such as equipment activity logs or equivalent
documentation that identified the dates and the beginning and ending times the employees
used the equipment.

Both methodologies the City used to calculate equipment costs assume that employees used
the equipment continuously throughout their workday and, therefore, do not consider idle
time, which FEMA considers ineligible (Public Assistance Guide, FEMA 322, October 1999, p.
37). We question the $152,176 claimed for equipment use, as shown in table 1, because the
City’s documentation was insufficient for us to verify the accuracy and eligibility of the costs.

                              Table 1: Supporting Documentation
                                     Activities                   Amount         Amount
       Department                  Not Supported                  Awarded       Questioned
           Police                 Police Vehicles                     $74,968       $74,968
                         Pickup trucks, generators, debris
          Various              removal equipment                      77,208         77,208
           Total                                                    $152,176       $152,176

City officials disagreed with the finding. City officials told us a 2009 flood destroyed the
equipment activity logs . They also told us that equipment summaries and other file summaries
are sufficient documentation to support the equipment use claim.

Finding B: Ineligible Debris Disposal Costs

The City’s claim under Project 7557 included $55,969 of ineligible debris disposal costs. The
City claimed $122,602 for the loss of landfill air space consumed by 21,509.15 cubic yards of
disaster-related vegetative mulch deposited at the City’s landfill. The City based its claim on a
rate of $5.70 per cubic yard of vegetative debris brought to the landfill. According to the debris
management plan for the landfill, the City planned for the mulch to decompose and become
quality topsoil usable for other City projects. Because this strategy would not have resulted in
permanent loss of landfill air space, the City’s claim is not eligible for reimbursement under the
Public Assistance program.



www.oig.dhs.gov                               3                                             DA-13-27
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security



However, in 2008, the Florida Department of Environmental Protection notified the City that it
could not allow the vegetative mulch to decompose at the City’s landfill because the debris
produced ammonia that was contaminating the water table. As a result, the City removed a
majority of the mulch from the landfill and moved it to another location for a cost of $66,633.

Cost principles at 2 CFR 225, Cost Principles for State, Local, and Indian Tribal Governments,
Appendix A, Section (C)(3)(a.), state that a cost is allocable to a particular cost objective if the
goods or services involved are chargeable or assignable to such cost objective in accordance
with relative-benefits received. Because debris disposal costs are eligible costs under the Public
Assistance program, the City would be entitled to reimbursement of the $66,633 that it
incurred to remove the debris from the landfill, but no costs for lost landfill air space because
the City lost no space indefinitely. Therefore, we question $55,969 of excessive costs which
represents the net of the $122,602 the City claims, less the $66,633 it spent to move the mulch
to an offsite disposal location.

City officials disagreed with this finding. They asserted that because the original plan of using
the mulch for City projects did not occur because of the mulch contamination and subsequent
removal, they claimed the City is entitled to the lost air space of the mulch that the contractor
did not remove. However, because the original management plan was to use the mulch, the
City should not have claimed it because no air space would be lost. Additionally, if the landfill
lost air space the City did not provide support documenting how much airspace was actually
lost.

Finding C: Small Project Work Not Completed

The City’s claim included $1,025 for permanent work under a small project that the City did
not complete. According to 44 CFR 206.205(a), failure to complete work under a small project
may require that the Federal payment be refunded. In addition, FEMA’s Public Assistance
Guide (FEMA 322, October 1999, p. 114) states that a grant recipient has 18 months from the
disaster declaration date to complete work under permanent repair projects. The State, as
grantee, has the authority to grant extensions for an additional 30 months under extenuating
circumstances, and FEMA may grant extensions beyond the State’s authority appropriate to
the situation.

The City received $5,185 of FEMA funding under Project 8787 to make various repairs, which
included replacing an awning at the Brennan Water Plant damaged by the disaster.
However, as of March 2013, or 8 years and 6 months after the disaster, the City neither
provided evidence that it replaced the awning nor obtained a time extension to complete
the work from the State or FEMA. Therefore, we question the $1,025. City officials agreed
with this finding.




www.oig.dhs.gov                              4                                             DA-13-27
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security



                                   RECOMMENDATIONS

We recommend that the Regional Administrator, FEMA Region IV:

Recommendation #1: Disallow $152,176 (Federal share $152,176) of unsupported costs unless
the City can provide additional evidence to support the costs claimed (finding A).

Recommendation #2: Disallow $55,969 (Federal share $50,372) of ineligible debris disposal
costs (finding B).

Recommendation #3: Disallow $1,025 (Federal share $923) of ineligible costs for work not
completed under Project 8787 unless the City can provide additional evidence that it completed
the project (finding C).


                  DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOWUP

We discussed the audit results with City, State, and FEMA officials during our audit. We also
provided a written summary of our findings and recommendations in advance to these officials
and discussed them at the exit conference held on May 30, 2013. City officials partially agreed
with our findings and recommendations. We included their comments, where appropriate, in
this report.

Within 90 days of the date of this memorandum, please provide our office with a written
response that includes your (1) agreement or disagreement, (2) corrective action plan, and
(3) target completion date for each recommendation. Also, please include responsible parties
and any other supporting documentation necessary to inform us about the current status of the
recommendation. Until we receive and evaluate your response, we will consider the
recommendations as open and unresolved.

Consistent with our responsibility under the Inspector General Act, we will provide copies of our
report to appropriate congressional committees with oversight and appropriation responsibility
over the Department of Homeland Security. We will post the report on our website for public
dissemination.

Major contributors to this report are David Kimble, Director; William Johnson, Audit Manager;
and John Schmidt, Auditor-in-Charge.

Please call me with any questions, or your staff may contact David Kimble, Director, Eastern
Regional Office, at (404) 832-6702.




www.oig.dhs.gov                             5                                            DA-13-27
                                    OFFICE OF INSPECTOR GENERAL
                                          Department of Homeland Security


                                                                                                        Exhibit

                                 Schedule of Projects Audited and Questioned Costs

     Project       Category                                   Amount         Amount       Federal
    Number         Of Work          Description Of Work       Awarded       Questioned     Share     Finding
   Large Projects:
      7557           A        Debris Removal                   $1,075,316       $55,969    $50,372     B
      8555           E        Permanent Repairs                  306,186
      9400           B        Emergency Protective Measures      370,476        152,176    152,176     A
   Small Projects:
      8076           E        Permanent Repairs                    $9,291
      8178           E        Permanent Repairs                     1,523
      8215           G        Permanent Repairs                    12,541
      8711           G        Permanent Repairs                    35,934
      8784           G        Permanent Repairs                     6,817
      8787           E        Permanent Repairs                     5,185        $1,025       $923     C
   Total                                                       $1,823,269      $209,170   $203,471




www.oig.dhs.gov                                           6                                           DA-13-27
                           OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


                                                                        Appendix

                                      Report Distribution

Department of Homeland Security

Secretary
Chief Financial Officer
Under Secretary for Management
Acting Chief Privacy Officer
Audit Liaison, DHS

Federal Emergency Management Agency

Administrator
Chief of Staff
Chief Financial Office
Chief Counsel
Director, Risk Management and Compliance
Audit Liaison, FEMA Region IV
Audit Liaison, FEMA (Job Code G-13-004)

State

Executive Director, Florida Division of Emergency Management
State Auditor, Florida

Subgrantee

City Manager, City of Daytona Beach

Office of Management and Budget

Chief, Homeland Security Branch
DHS OIG Budget Examiner

Congress

Senate Committee on Appropriations, Subcommittee on Homeland Security
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations, Subcommittee on Homeland Security
House Committee on Homeland Security
House Committee on Oversight and Government Reform



www.oig.dhs.gov                            7                             DA-13-27
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to:

       Department of Homeland Security 

       Office of Inspector General, Mail Stop 0305 

       Attention: Office of Investigations Hotline 

       245 Murray Drive, SW 

       Washington, DC 20528-0305 


You may also call 1(800) 323-8603 or fax the complaint directly to us at
(202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
